HHS/OIG-Audit-"Review of Cardiac Rehabilitation Services at Cloud County Health Center, Concordia, Kansas,"(A-07-03-00153)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Cardiac Rehabilitation Services at Cloud County Health Center, Concordia, Kansas," (A-07-03-00153)
January 30, 2004
Complete
Text of Report is available in PDF format (332 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether:   (1) Cloud County Health Center's
(CCHC) policies and procedures reflected Medicare cardiac rehabilitation coverage requirements for direct physician supervision, incident
to services, and Medicare covered diagnoses; and (2) payments to CCHC for outpatient cardiac rehabilitation services provided
to Medicare beneficiaries during Calendar Year (CY) 2001 were for Medicare covered diagnoses, were supported by adequate
documentation, and were otherwise allowable for reimbursement.  CCHC did not designate a physician to directly supervise
the services provided by its cardiac rehabilitation staff.  Also, contrary to current Medicare requirements, we could
not identify the physician professional services to which the cardiac rehabilitation services were provided incident to.  In
addition, from our claims review of 16 beneficiaries who received outpatient cardiac rehabilitation services during CY
2001, we determined that CCHC received Medicare reimbursement amounting to $4,244.  For these 16 beneficiaries, we
determined that: (1) CCHC billed 1 session that exceeded the 36 session-limit of treatment for cardiac rehabilitation;
and (2) CCHC did not submit documentation to Medicare to adequately document 63 sessions of treatment.